Memorandum No. D-2010-RAM-002     November 3, 2009




Results From the Audit of DoD's American Recovery
 and Reinvestment Act of 2009 Initial Data Quality
             Review Implementation
Additional Information
To obtain additional copies of this audit, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
OMB                           Office of Management and Budget
RATB                          Recovery Accountability and Transparency Board
USACE-MP                      United States Army Corps of Engineers-Military Programs
                               IN SPECTOR GE NERAL 

                               DEPARTMENT OF DEFEN SE 

                                  400 ARMY NAVY DR IVE 

                            AR LIN GTON, VIRG INIA 22202-4704 




                                                                    November 3, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER

SUBJ ECT: 	 Results From the Audit of DOD 's American Recovery and Reinvestment
            Act of2009 Initial Data Quality Review Implementation
            (Report No. D-2010-RAM-002)


We initiated this audit at the request ofthe Recovery Accountability and Transparency
Board. This memorandum provides our audit results on DOD's efforts to establish a
process to perform a limited data quality review of repOlis made by prime recipients of
DOD's American Recovery and Reinvestment Act of2009 funds for the qumier ending
September 30, 2009. We will continue to review DOD's progress and issue subsequent
memoranda that will discuss our evaluation of DOD's implementation of the Recovery
Act.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5886 (DSN 329-5886).



                                           Daniel R. Blair, CPA
                                           Principal Deputy Assistant Inspector General
                                           Defense Business Operations
 Memorandum No. D-2010-RAM-002 Project No. D2009-D000FH-0167.001 November 3, 2009

               Results From the Audit of DOD’s American
               Recovery and Reinvestment Act of 2009 Initial
               Data Quality Review Implementation



What We Did
                                                        DOD, however, did not have a well-defined
We initiated this audit at the request of the           process to perform limited data quality reviews
Recovery Accountability and Transparency                intended to identify material omissions and/or
Board. Our objective was to determine whether           significant reporting errors and to notify the
DOD had established processes to perform                recipients of the need to make appropriate and
limited data quality reviews intended to identify       timely changes. Nor did DOD have specific
material omissions and/or significant reporting         policies and procedures to perform these tasks.
errors and to notify the recipients of Recovery         DOD provided us with a high-level description
Act funds of the need to make appropriate and           that did not include roles and responsibilities, a
timely changes; specifically, to review DOD             detailed description of its methodology,
processes for monitoring recipient reporting of         processes to identify material omissions and/or
Recovery Act funds for the quarter ending               significant reporting errors, or milestones.
September 30, 2009. We also contacted DOD
agencies executing DOD Recovery Act funds to            For the DOD agencies executing DOD
understand their processes for performing               Recovery Act funds, we found that the U.S.
limited data quality reviews.                           Army Corps of Engineers-Military Programs
                                                        had an established process to perform limited
What We Found                                           data quality reviews intended to identify
The first reports from contractor recipients of         material omissions and/or significant reporting
Recovery Act funds were due October 10, 2009.           errors and to notify the recipients of the need to
OMB only issued guidance addressing                     make appropriate and timely changes. It also
contractor recipient reports or reporting on            had specific policies and procedures to perform
September 30, 2009. The required reports also           these tasks.
included reports from recipients of grants and
cooperative agreements of DOD Recovery Act              Suggested Actions
funds. Federal agencies received guidance               We recognize that this was DOD’s first
addressing grants and cooperative agreement             quarterly effort and that procedures and
recipient reports or reporting from OMB on              processes may be refined in future reviews.
June 22, 2009, which gave DOD more than                 However, we suggest that DOD establish a well-
3 months to establish a well-defined process and        defined process to perform limited data quality
policies and procedures to perform limited data         reviews intended to identify material omissions
quality reviews.                                        and/or significant reporting errors and to notify
                                                        the recipients of the need to make appropriate
                                                        and timely changes. We also suggest that DOD
                                                        establish specific policies and procedures to
                                                        perform these tasks.


                                                    i
Introduction
Objective
The Recovery Accountability and Transparency Board (RATB) requested that the
Inspector General community conduct audits to determine whether Federal agencies have
established a process to perform limited data quality reviews of recipient reporting of
Recovery Act funds for the quarter ending September 30, 2009. Our objective was to
determine whether DOD had established processes to perform limited data quality
reviews intended to identify material omissions and/or significant reporting errors, and to
notify the recipients of the need to make appropriate and timely changes. See Appendix
A for a discussion of our scope and methodology.

Background
In passing Public Law 111-5, American Recovery and Reinvestment Act of 2009
(Recovery Act), February 17, 2009, Congress provided supplemental appropriations to
preserve and create jobs; promote economic recovery; assist those most affected by the
recession; provide investments to increase economic efficiency through technological
advances in science and health; and invest in transportation, environmental protection,
and other infrastructure. The Recovery Act also established unprecedented efforts to
ensure the responsible distribution of funds for the Act’s purposes and to provide
transparency and accountability of expenditures so that the public would know how,
when, and where tax dollars were being spent. Further, the Recovery Act stated that the
President and the heads of Federal agencies and departments were to manage and expend
the funds made available in the Act to achieve its purpose, which included commencing
expenditures for activities as quickly as possible, consistent with prudent management.

Under the Recovery Act Congress appropriated $7.4 billion to DOD for the following
programs: Energy Conservation Investment; Facilities Sustainment, Restoration, and
Modernization; Homeowners Assistance Program; Military Construction; and Near Term
Energy-Efficient Technologies. DOD Recovery Act funds are executed by other DOD
agencies, some of which are U.S. Army Corps of Engineers-Military Programs
(USACE-MP), U.S. Army Installation Management Command, Naval Facilities
Engineering Command, and the National Guard Bureau. 1 The funds are executed
through contracts, grants, and cooperative agreements.

RATB was created with the passing of Public Law 111-5. It is responsible for
coordinating and conducting oversight of Federal spending under the Recovery Act to
prevent waste, fraud, and abuse. In addition, the RATB established a nationwide data
collection system at www.federalreporting.gov for recipients to report the information




1
 Only DOD and USACE-MP responded to our questionnaire regarding a process for implementing data
quality reviews of contractor recipient reports.


                                                1


required by section 1512. RATB will make the information reported by recipients
available to the public at www.recovery.gov.

The reporting requirements by recipients of DOD Recovery Act awards and by Federal
agencies and department on the use of Recovery Act funds are contained in Public Law,
regulations, and Office of Management and Budget (OMB) guidance. Section 1512 of
the Recovery Act and related OMB guidance require recipients of Recovery Act funds to
report on the use of those funds. Beginning the quarter ending September 30, 2009,
prime recipients of Recovery Act awards are required to report the total amount of funds
received, the total amount of funds obligated or expended on the projects and activities
being funded, the completion status of the projects, and an estimate of the number of jobs
created and retained.

Reporting Requirements for Recovery Act Data
Public Law 111-5, American Recovery and Reinvestment Act of
2009 (Recovery Act), February 17, 2009
Section 1512 of the Act requires recipients to report on the use of Recovery Act funds.
The Act defines a recipient as any entity that receives Recovery Act funds directly from
the Federal Government through contracts, grants, or loans, and includes States that
receive funds. The prime recipients of contracts, grants, or loans are required, within 10
days after the end of each calendar quarter (first report due by October 10, 2009), to
report the total amount of funds received, funds expended or obligated, description of
projects or activities and estimated number of jobs created or retained, and detailed
information on any contracts or grants awarded to subrecipients. 2

Federal Acquisition Regulation (FAR) Case 2009-009, American
Recovery and Reinvestment Act of 2009 (the Recovery Act)—
Reporting Requirements [Interim Rule], Federal Register, volume
74, number 60, March 31, 2009
FAR subpart 52.204-11 requires each contractor to report all work funded, in whole or in
part, by the Recovery Act for which an invoice is submitted before June 30, 2009. These
reports were due no later than July 10, 2009. Thereafter, reports are to be submitted no
later than the 10th day after the end of each calendar quarter, using the online reporting
tool available at www.federalreporting.gov. The contractor is to report contract and
performance data, the contract’s purposes and expected outcomes, its employment
impact, and other required data.

FAR subpart 4.1501 directs contracting officers to structure contract awards to allow for
separately tracking Recovery Act funds and to ensure that the contractor complies with


2
  The prime recipients of contracts, grants, or loans are responsible for reporting the detailed information
required by the Federal Funding Accountability and Transparency Act of 2006 on any subcontract or
subgrant they award that exceeds $25,000. The prime recipient can delegate this reporting responsibility to
the subrecipient of the contract or grant.


                                                     2


the reporting requirements of FAR clause 52.204-11. Further, FAR subpart 4.1502
requires contracting officers to include FAR clause 52.204-11 in all solicitations and
contracts, funded in whole or in part by the Recovery Act, including orders and
modifications to existing contracts or orders. However, the interim rule states that
contracting officers are not responsible for validating report content, only that the
contractor submitted the required report.

OMB Memorandum (M-09-21), “Implementing Guidance for the
Reports on the Use of Funds Pursuant to the American Recovery and
Reinvestment Act of 2009,” June 22, 2009
OMB M-09-21 defines the key activities, milestones, and timeline for the filing of reports
by recipients and reviewing the data in the reports by Federal agencies. The guidance
applies to all forms of Recovery Act assistance except for Federal contracts and loan
guarantees. OMB M-09-21 requires recipients of Recovery Act funds to register at
www.federalreporting.gov 3 before submitting their reports. Recipients are then required
to report on the use of Recovery Act funds no later than the 10th day after the end of each
calendar quarter. The reporting and review period is 30 days. See the figure for detailed
timelines.
                             Recipient Reporting Timeline




Source: OMB M-09-21

OMB guidance also requires Federal agencies to develop internal policies and procedures
for reviewing reported data and to perform a limited data quality review to identify
material omissions and/or significant reporting errors, and to notify the recipients of the
need to make appropriate and timely changes. The memorandum defines material
omissions as instances where the recipient does not report the required data or reported
information is not responsive to the data requests, resulting in significant risk that the
public is not fully informed about the status of a Recovery Act project or activity. The
memorandum defines significant reporting errors as those instances where the recipient



3
  Federalreporting.gov is an online Web portal that will collect all Recovery Act recipient reports. Both
recipients and Federal agencies must first register to use the portal to submit or review reports.


                                                     3


does not report required data accurately and such erroneous reporting results in
significant risk that the public would be misled or confused by the recipient report.

OMB Memorandum: Office of Federal Procurement Policy
“Interim Guidance on Reviewing Contractor Reports on the Use
of Recovery Act Funds in Accordance with FAR Clause 52.204-
11,” September 30, 2009
The OMB interim guidance clarifies the responsibilities of Federal contractors and
agency officials regarding Federal contracts that use Recovery Act funds. The guidance
requires agencies to review contractor reports to ensure the information provided in the
report is consistent with the award. Further, OMB interim guidance stipulates that
agencies are to have oversight processes in place to review contractor reports and to
conduct limited reviews intended to identify significant errors or material omissions in
the reports. The OMB interim guidance provides the same reporting and reviewing
timelines and Website as stipulated in OMB M-09-21.




                                             4


Audit Results
DOD did not have a well-defined process to perform limited data quality reviews
intended to identify material omissions and/or significant reporting errors and to notify
the recipients of the need to make appropriate and timely changes. Nor did DOD have
specific policies or procedures to perform the data quality reviews. In addition, with the
exception of USACE-MP, we could not determine whether DOD agencies executing
DOD Recovery Act funds had a well-defined process in place to perform limited data
quality reviews intended to identify material omissions and/or significant reporting errors
and to notify the recipients of the need to make appropriate and timely changes. Nor
could we determine whether they had specific policies or procedures to perform data
quality reviews.

DOD Recovery Act funds are executed through contracts, grants, and cooperative
agreements. OMB did not issue guidance addressing limited data quality review of
contractors’ reports until September 30, 2009. OMB, however, did issue its interim
guidance for recipients of grants and cooperative agreements on June 22, 2009, which
gave DOD more than 3 months to establish a well-defined process to perform limited
data quality reviews intended to identify material omissions and/or significant reporting
errors and to notify the recipients of the need to make appropriate and timely changes as
well as establish specific policies and procedures to perform these tasks.

Observations on DOD’s Limited Data Quality Review
DOD did not describe a well-defined process to perform limited data quality reviews
intended to identify material omissions and/or significant reporting errors and to notify
the recipients of the need to make appropriate and timely changes. DOD provided only
the following high-level description of its process at DOD headquarters:

               The Department is using data extracts from FederalReporting.gov and
               comparing to contract information available on [Federal Procurement
               Data System] FPDS.gov.          The Lead [American Recovery and
               Reinvestment Act] Coordinator: Deputy Under Secretary of Defense
               (Resource Issues) in the [Office of Under Secretary of Defense
               (Comptroller)] holds daily meetings to review the data with the
               Services, identify gaps in reporting and other errors and have recipients
               notified of non-reporting or [corrections] required.

Based on the description provided by DOD, we are concerned that this process is not
well-defined and may not be sustainable. Secondly, we noted that DOD’s description did
not include the following:

        the roles and responsibilities of the officials involved, a methodology to
         address:
            each phase of the reporting cycle,
            the review process at the Services,




                                                  5


            the specific reports used in the review, including a description of the type
             of analysis performed during the review, and
            a description on whether it applied to contracts, grants, or cooperative
             agreements, or
        the milestones for DOD’s plans for further refining its process.

DOD would improve the accuracy and reliability of Recovery Act data by having a
well-defined process intended to identify material omissions and/or significant reporting
errors and to notify the recipients of the need to make appropriate and timely changes. It
would further improve the data by having specific policies and procedures to perform the
data quality reviews. In addition, these efforts would improve the transparency of DOD’s
Recovery Act funding and help provide useful information to the public.

During our audit, we did not conduct a walkthrough of DOD’s process because the
Department’s response was not timely and our audit had a short turnaround time. As a
result, we were unable to observe DOD’s process for performing limited data quality
reviews to identify material omissions and/or significant reporting errors.

From the limited information provided by DOD, we found that the Department did not
have specific policies and procedures to perform limited data quality reviews for
contracts, grants, and cooperative agreements. DOD stated the following in its response
to our questionnaire:

               Detail procedures were presented in the weekly working group meeting
               provided by the Recovery Implementation Office. In addition, there
               are numerous resources FederalReporting.gov that provide information
               on all aspects of recipient reporting. No additional policies were
               needed.

In response to what policies, procedures, or guidance DOD had issued for recipient
reporting, DOD responded as follows.

               During a regularly scheduled weekly meeting of the Department’s
               Recovery Act workgroup, Deputy Director, Defense Procurement &
               Acquisition Policy (Strategic Sourcing), [Deputy Under Secretary of
               Defense] (Acquisitions and Technology) provided a presentation [not
               attached] on “Agency Report Review and Commenting Overview
               (including Data Extract).”

The presentation showed timelines and instructions to navigate and comment in
www.federalreporting.gov. In addition, during our exit debrief DOD provided e-mails
and training presentations that showed a degree of coordination with DOD agencies and
contractors.

However, we disagree with DOD’s response because having policies and procedures
specifically designed to perform limited data quality reviews would improve the
Department’s ability to identify material omissions and/or significant reporting errors and
to notify the recipients of the need to make appropriate and timely changes.


                                                6


While conducting our audit, OMB issued on September 30, 2009, its interim guidance on
reviewing contractors’ reports. OMB’s interim guidance requires Federal agencies to
review reports made by contractors to ensure the information provided in the report is
consistent with the award and to have oversight processes in place for reviewing
contractor reports and for conducting reviews intended to identify significant errors or
material omissions in the reports.

OMB’s issuing its guidance so late may have impacted the Department’s ability to
establish a well-defined process. OMB did, however, issue interim guidance for
recipients of grants and cooperative agreements on June 22, 2009. This guidance also
requires Federal agencies to develop internal policies and procedures for reviewing
reported data and to perform a limited data quality review to identify material omissions
and/or significant reporting errors, and to notify the recipients of the need to make
appropriate and timely changes. OMB’s issuing its guidance on June 22, 2009 gave
DOD more than 3 months to establish a well-defined process to perform limited data
quality reviews intended to identify material omissions and/or significant reporting errors
and to notify the recipients of the need to make appropriate and timely changes as well as
establish specific policies and procedures to perform these tasks.

We recognize that this was DOD’s first quarterly effort to perform a limited data quality
review, and procedures and processes may be further refined in future reviews.

Observations on DOD Agencies Executing DOD
Recovery Act Funds
DOD agencies execute DOD Recovery Act funds. For example, Naval Facilities
Engineering Command delivers facilities engineering and acquisition through public
works, capital improvements, and contingency engineering. We contacted those
executing agencies for which we had obtained point-of-contact information: Army
Installation Management Command, Naval Facilities Engineering Command, and the
National Guard Bureau. These agencies received copies of our questionnaire for
response. However, they did not respond. As a result, we were unable to determine
whether they had established a well-defined process to perform limited data quality
reviews intended to identify material omissions and/or significant reporting errors and to
notify the recipients of the need to make appropriate and timely changes. Nor could we
determine whether they had established specific policies or procedures to perform limited
data quality reviews. See Appendix B for a summary of our results.

We also contacted USACE (the DOD design and construction agent for Military
Construction) to coordinate meetings with USACE-MP to determine whether it had a
process to perform limited data quality reviews.

During our meetings, USACE officials discussed the established process for performing
limited data quality reviews intended to identify material omissions and/or significant
reporting errors and to notify the recipients of the need to make appropriate and timely
changes. Additionally, we conducted a limited walkthrough at USACE to observe


                                             7


USACE-MP’s data quality review process. We obtained spreadsheets, charts detailing
USACE-MP’s process and methodology, and other supporting documentation. However,
we did not validate the data provided by USACE-MP because it was outside the scope of
this audit and our audit turnaround time was short.

USACE had established policies and procedures to perform limited data quality reviews.
For example, USACE issued guidance on March 31, 2009 which directs all USACE
contracting officers to incorporate FAR clause 52.204-11 in all Recovery Act
solicitations and contracts. On July 22, 2009, USACE issued additional guidance
addressing recipient report execution.

Suggested Actions
We took into consideration that interim guidance specifically addressing contractor
recipient reporting was only issued by OMB on September 30, 2009 – less than 2 weeks
before the recipient report was due. Additionally, we recognized that this was DOD’s
first quarterly effort and procedures and processes may be refined in future reviews.
However, for DOD to have a well-defined process intended to identify material
omissions and/or significant reporting errors and to notify the recipients of the need to
make appropriate and timely changes, and to have specific policies and procedures to
perform limited data quality reviews; we suggest the that the Deputy Under Secretary of
Defense (Resource Issues) in the Office of the Under Secretary of Defense (Comptroller):

        1. Establish and implement a well-defined process for performing a limited data
quality review intended to identify material omissions and/or significant reporting errors,
and to notify the recipients of the need to make appropriate and timely changes to
implement Public Law 111-5, OMB M-09-21, and OMB interim guidance.

       2. Establish and implement policies and procedures specifically designed to
perform limited data quality reviews of recipient reports as prescribed by OMB M-09-21,
and OMB interim guidance.




                                             8


Appendix A. Scope and Methodology
The audit was initiated by a request from the RATB which called for the Inspector
General community to review their Federal agency’s process for monitoring recipient
reporting of Recovery Act funds for the quarter ending September 30, 2009. We
conducted this audit from September 2009 through October 2009 with limited use of
generally accepted government auditing standards. For this audit we followed the
standards of independence, supervision, evidence, and reporting. Owing to the unique
requirements of the Recovery Act, along with time limitations for planning and
completing this audit, we did not fully comply with the fieldwork auditing standards for
identifying investigations, assessing fraud risk, reviewing internal controls, and
identifying data and information system controls.

Generally accepted government auditing standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe omitting the
procedures described above did not limit our ability to conclude on the audit objective to
determine whether DOD had established processes to perform limited data quality
reviews intended to identify material omissions and/or significant reporting errors in
recipient report data and to notify the recipients of the need to make appropriate and
timely changes. We believe that the evidence we obtained during our audit provides a
reasonable basis for our findings and conclusions.

During the audit, we coordinated with other agencies by attending working group
meetings, teleconferences, and providing feedback on Recovery Act limited data quality
review related issues. We attended weekly Recovery Act meetings organized by the
Under Secretary of Defense (Comptroller) and participated in teleconferences with the
RATB and Under Secretary of Defense for Acquisition, Technology, and Logistics. In
addition, we coordinated meetings with Under Secretary of Defense (Comptroller) and
USACE.

We developed a questionnaire based on criteria established by Public Law 111-5, OMB
M-09-21 “Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009,” Federal Register, and Federal
Acquisition Regulation. We then submitted the questionnaire to Under Secretary of
Defense (Comptroller) and requested that it be forwarded to the appropriate points of
contact for a response. Additionally, we submitted our questionnaire to USACE-MP,
Army Installation Management Command, Naval Facilities Engineering Command, and
Naval Guard Bureau to obtain an understanding of their policies, procedures, and
processes for performing a limited data quality review of recipient reporting at
federalreporting.gov.

For additional contracting guidance, we reviewed OMB “Interim Guidance on Reviewing
Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR Clause
52.204-11.” We also obtained and reviewed DOD’s response to our questionnaire as
well as all documentation provided in its response. We documented our meeting with


                                             9


USACE and reviewed its policies and procedures to assess whether USACE had
processes, policies, and procedures specifically addressing limited data quality reviews of
reports provided by recipients of DOD contracts. In addition, we reviewed USACE
charts and spreadsheets related to its process and methodology. We conducted a limited
walkthrough at USACE headquarters; however, we did not validate the information we
obtained because it was outside the scope of this audit.




                                            10


Appendix B. Limited Data Quality Review
Results

Agency              Response to   Policy/Procedures                          Process for Conducting
                    Questionnaire Specifically Addressing                    a Limited Data Quality
                                  Limited Data Quality                       Review.
                                  Review
DOD                       Y                    N                                          N

USACE-MP                    Y                              Y                              Y

IMCOM                       N                              U                              U

NAVFAC                      N                              U                              U

NGB                         N                              U                              U


Legend

IMCOM - Army Installation Management Command



NAVFAC - Naval Facilities Engineering Command



NGB - National Guard Bureau



N - Denotes no response provided or no specific policies and procedures or a well-defined process was 

identified to review reports made by recipients of Recovery Act awards. 


U- Denotes unable to make a determination because of a lack of response to questionnaire. 


Y - Denotes a response, relevant policies and procedures, and process were provided.






                                                    11


12 

